HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in California and Arizona for July 1,
2005, Through June 30, 2006 - California Department of Health Care Services,"
(A-05-07-00058)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Services
Provided to Beneficiaries With Concurrent Eligibility in California and Arizona
for July 1, 2005, Through June 30, 2006 - California Department of Health Care
Services," (A-05-07-00058)
April 14, 2008
Complete
Text of Report is available in PDF format (1.77 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We found that California made Medicaid payments on behalf
of beneficiaries who should not have been eligible in California because they
were eligible in Arizona.  If a resident of one
State subsequently establishes residency in another State, the beneficiarys
Medicaid eligibility in the previous State should end.  States Medicaid
agencies must promptly redetermine eligibility when they receive information
about changes in a beneficiarys circumstances that may affect eligibility.
California made the payments because it did not share all available
Medicaid eligibility information with Arizona.  As a result, for the period July
1, 2005, through June 30, 2006, we estimate that California paid $154,470
($77,235 Federal share) for Medicaid services provided to beneficiaries who
should not have been eligible to receive benefits.
We recommended that California work with Arizona to share
available Medicaid eligibility information for use in (1) determining accurate
beneficiary eligibility status and (2) reducing the amount of payments,
estimated to be $154,470 ($77,235 Federal share), made on behalf of
beneficiaries residing in Arizona.  California generally agreed with our
recommendations.